HHS/OIG-Audit--"Review of Pension Costs Claimed for Medicare Reimbursement by Rocky Mountain Health Care Corporation, (A-07-96-01197)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed for Medicare Reimbursement by Rocky
Mountain Health Care Corporation," (A-07-96-01197)
February 4, 1997
Complete Text of Report is available in PDF format
(874 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of Pension Costs Claimed
for Medicare Reimbursement by Rocky Mountain Health Care Corporation (Colorado)
for Fiscal Years 1988 through 1995. In 1989 Colorado, Blue Cross and Blue Shield
of New Mexico (New Mexico), and Blue Cross and Blue Shield of Nevada (Nevada)
merged into the Rocky Mountain Health Care Corporation (Rocky Mountain). Our
review included pension costs claimed by Colorado prior to the merger. For clarity,
we used the current name of Rocky Mountain in this report for referring to Colorado
prior to 1989. We reviewed pension costs claimed by New Mexico prior to the
merger, in a separate audit (CIN: A-07-96-01196). Nevada was not a medicare
contractor.
We determined that Rocky Mountain underclaimed allowable Medicare pension costs
for 1988 through 1995. During this period, the allowable Medicare pension costs
were $783,497. However, Rocky Mountain claimed pension costs of $708,324 for
Medicare reimbursement. As a result, Rocky Mountain did not claim $75,173 of
allowable pension costs. The underclaim occurred primarily because Rocky Mountain
did not base its claim on separately computed Cost Accounting Standards pension
costs for the Medicare segment. We recommended Rocky Mountain revise its Final
Administrative Cost Proposals to reflect the remaining allowable pension costs.